Audit Report No. D-2011-018           November 30, 2010




    FY 2008 and FY 2009 DOD Purchases Made Through
            the General Services Administration
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
COR                           Contracting Officer’s Representative
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FMR                           Federal Management Regulation
GSA                           General Services Administration
IG                            Inspector General
MIPR                          Military Interdepartmental Purchase Request
O&M                           Operations and Maintenance
OFPP                          Office of Federal Procurement Policy
OIG                           Office of the Inspector General
QASP                          Quality Assurance Surveillance Plan
RFQ                           Request for Quote
SAF/AQXR                      Secretary of the Air Force, Management Policy and
                                Programs Integration Office
                                     INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DRIVE 

                               ARLINGTON, VIRGINIA 22202-4704 





                                                                              November 30, 20 I 0

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTORS OF THE DEFENSE AGENCIES
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: FY 2008 and FY 2009 DoD Purchases Made Through the General
         Services Administration (Report No. D-20 11-0 18)

We are providing this report for review and comment. We considered management comments on
a draft of this report when preparing the final rep0l1. We determined that the General Services
Administration officials generally complied with Federal requirements when making purchases on
behalf of DoD; however, DOD organizations showed little improvement since our FY 2005 audit.
DoD provided $2.8 billion to the General Services Administration contracting activities to award
acquisitions for goods and services from June 2008 through September 2009.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The Army, Missile
Defense Agency, Defense Advanced Research Projects Agency, Defense Contract Audit Agency,
Defense Finance and Accounting Service, Defense Information Systems Agency, Defense Legal
Services Agency, Defense Logistics Agency, Defense Security Cooperation Agency, Defense
Security Services, National Geospatial-Intelligence Agency, and National Security
Agency/Central Security Services did not provide comments on Recommendation 3. Therefore,
we request that these agencies provide comments by December 30, 20 I O.

If possible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of your
comments must have the actual signaturc of the authorizing official for your organization. Wc are
unable to accept the ISignedl symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9200 (DSN 664-9200). If you desire, we will provide a formal briefing on the results.




                                      ~,~0i~Assistant Inspector General
                                            Acquisition and Contract Management

cc: Inspector General, General Services Administration
Report No. D-2011-018 (Project No. D2009-D000CF-0259.000)                   November 30, 2010


              Results in Brief: FY 2008 and FY 2009 DoD
              Purchases Made Through the General
              Services Administration

What We Did                                            These conditions occurred because DoD and
As required by Public Law 110-181, “National           GSA officials involved in the purchases did not
Defense Authorization Act for Fiscal Year              emphasize acquisition planning and contract
2008,” we performed an audit of DoD                    administration for the goods and services
contracting through the General Services               acquired through interagency acquisition. As a
Administration (GSA) to determine whether              result, DoD organizations had no assurance that
DoD and GSA improved their interagency                 the purchases resulted in the best value for the
purchasing practices since our last audit. We          Government or that the terms and conditions of
visited 10 DoD organizations and reviewed              contracts were met.
50 purchases, valued at $255 million. Further,
we visited 3 GSA Client Support Centers and            What We Recommend
reviewed 35 of the 50 purchases, valued at
$203 million. DoD should continue to use GSA           •	 The Under Secretary of Defense for
to purchase goods and services when in DoD’s              Acquisition, Technology, and Logistics
best interest.                                            should work with GSA officials to enhance
                                                          Part B of the interagency agreements to
                                                          address recurring problems identified in the
What We Found                                             report. The agreements should list the
GSA has improved its funding and contracting              specific DoD and GSA personnel who will
practices. Specifically, GSA contracting and              be responsible for the areas, and these
resource management officials generally                   individuals should sign Part B of the
complied with the Federal Acquisition                     interagency agreements.
Regulation and appropriation law when making           •	 The Under Secretary of Defense
the 50 purchases on behalf of DoD. In addition,           (Comptroller)/Chief Financial Officer
DoD fund management has improved.                         should direct the DoD Components to
However, DoD organizations showed little                  initiate preliminary reviews for the
improvement in other areas since our FY 2005              three potential Antideficiency Act violations
purchases audit.                                          identified in the report.
                                                       •	 The Under Secretaries of the Army, Navy,
DoD officials did not perform or inadequately             and Air Force and the Directors of the
performed acquisition planning for 36 of                  Defense agencies should establish a peer
50 purchases, DoD officials did not develop or            review process to ensure that users of
had inadequate interagency agreements for 31 of           interagency contracting adhere to guidance.
50 purchases, and DoD and GSA officials
incurred potential Antideficiency Act violations       Management Comments and
for 3 of 50 purchases. DoD and GSA officials
did not ensure that contracting officer’s              Our Response
representatives were assigned for 28 of                The Under Secretary of Defense for
50 purchases, DoD and GSA officials did not            Acquisition, Technology, and Logistics and the
have or had inadequate surveillance of                 Under Secretary of Defense (Comptroller)/Chief
contractor performance for 32 of 50 purchases,         Financial Officer generally agreed with the
and DoD and GSA officials did not collect past         recommendations. The Under Secretaries of the
performance information for 28 of 50 purchases.        Navy and Air Force and the Directors of some
Finally, GSA contracting officials did not have        Defense agencies generally agreed with the
support for price reasonableness determinations        recommendation. Please see the
for 14 of 35 purchases reviewed.                       recommendations table on the back of this page.

                                                   i
Report No. D-2011-018 (Project No. D2009-D000CF-0259.000)            November 30, 2010

Recommendations Table
Management                         Recommendations     No Additional Comments
                                   Requiring Comment   Required
Under Secretary of Defense for                                    1
Acquisition, Technology, and
Logistics
Under Secretary of Defense                                       2
(Comptroller)/Chief Financial
Officer
Defense Human Resource                                           3
Activity
Under Secretary of the Army                3
Under Secretary of the Navy                                      3
Under Secretary of the Air                                       3
Force
National Security                          3
Agency/Central Security
Services
Defense Advanced Research                  3
Projects Agency
Defense Information Systems                3
Agency
Defense Intelligence Agency                                      3
Defense Logistics Agency                   3
Defense Contract Audit Agency              3
Defense Security Cooperation               3
Agency
National Geospatial-Intelligence           3
Agency
Defense Security Services                  3
Defense Legal Services Agency              3
Missile Defense Agency                     3
Defense Commissary Agency                                        3
Defense Finance and                        3
Accounting Service
Defense Contract Management                                      3
Agency


Please provide comments by December 30, 2010.


                                               ii
Table of Contents

Introduction                                                                        1


      Audit Objectives                                                              1

      Background on DoD Use of GSA                                                  1

      Review of Internal Controls                                                   4


Finding. Improvements Needed in DoD Use of the General Services

            Administration                                                          6


      Inadequate Acquisition Planning for Use of GSA Contracting Services           7

      DoD Generally Funded Purchases Correctly                                     10 

      GSA Contracting Officials Generally Promoted Full and Open 

             Competition                                                           13 

      Inadequate Contract Administration                                           16 

      Lack of Interagency Contracting Accountability                               19 

      Conclusion                                                                   21 

      Management Comments on the Finding and Our Response                          22 

      Recommendations, Management Comments, and Our Response                       23 


Appendices

      A.   Scope and Methodology                                                   27 

      B.   Prior Coverage                                                          30 

      C.   Identified Contracting Problems                                         33 

      D.   Identified Funding Problems                                             35 



Management Comments

      Office of the Under Secretary of Defense for Acquisition, Technology,    

             and Logistics                                                         38 

      Office of the Under Secretary of Defense (Comptroller)/Chief Financial 

             Officer                                                               39 

      Department of Defense Human Resources Activity                               41 

      Under Secretary of the Navy                                                  48 

      Under Secretary of the Air Force                                             50 

      Defense Intelligence Agency                                                  52 

      Defense Commissary Agency                                                    53 

      Defense Contract Management Agency                                           54 

      General Services Administration                                              55 

Introduction
Audit Objectives
The overall objective was to determine whether DoD and the General Services
Administration (GSA) improved their interagency purchasing practices since our last
audit, “FY 2005 DoD Purchases Made Through the General Services Administration,”
October 30, 20061. Specifically, we examined policies, procedures, and internal controls
to determine whether DoD had a legitimate need to use GSA for making purchases and
whether DoD clearly defined its requirements. Additionally, this joint review examined
whether GSA and DoD properly used and tracked funds and whether GSA complied with
Federal and Defense procurement requirements. See Appendix A for a discussion of the
scope and methodology. See Appendix B for prior coverage.

Background on DoD Use of GSA
Section 801, Public Law 110-181, “National Defense Authorization Act for Fiscal Year
2008,” January 28, 2008 states:

           (a) INSPECTORS GENERAL REVIEWS AND DETERMINATIONS.—
           (1) IN GENERAL.—For each covered non-defense agency, 

           the Inspector General of the Department of Defense and the 

           Inspector General of such covered non-defense agency shall, 

           not later than the date specified in paragraph (2), jointly— 

           (A) review—
           (i) the procurement policies, procedures, and 

           internal controls of such covered non-defense agency

           that are applicable to the procurement of property

           and services on behalf of the Department by such

           covered non-defense agency; and

           (ii) the administration of such policies, procedures,

           and internal controls; and 

           (B) determine in writing whether such covered non-defense 

           agency is or is not compliant with defense procurement

           requirements. 


To comply with the FY 2008 National Defense Authorization Act, the DoD Office of
Inspector General (OIG) and GSA OIG conducted an interagency audit of DoD purchases
made through GSA in FYs 2008 and 2009. This is the third audit of DoD purchases
made through GSA. Our second audit disclosed problems that are summarized in DoD
Inspector General (IG) Report No. D-2007-007, “FY 2005 DoD Purchases Made
Through the General Services Administration,” October 30, 2006. The GSA OIG
conducted its own review of GSA contracting procedures and will report separately.
Their report will make recommendations to correct problems noted at GSA.



1
    Report No. D-2007-007

                                               1

General Services Administration
GSA is a Federal procurement and property management agency created to improve
Government efficiency and help Federal agencies better serve the public. The GSA
mission is to leverage the buying power of the Federal Government to acquire the best
value for taxpayers and their Federal customers. GSA:
     exercises responsible asset management and delivers superior workplaces, quality
       acquisition services, and expert business solutions;
     develops innovative and effective management policies;
     consists of 12,000 employees who provide services and solutions for the
       workplace operations of more than one million Federal workers; and
     consists of two entities, the Public Buildings Service and the Federal Acquisition
       Service.

In 2006 and 2007, GSA reorganized, and the Federal Technology Service and Federal
Supply Service merged and became the Federal Acquisition Service. The Federal
Acquisition Service offers value-added and customized acquisition, project management,
and financial management services for information technology and professional services’
products and services. The agencies using the Federal Acquisition Service can choose
the services and the level of support needed for each requirement. GSA solutions may
include the use of Government-wide acquisition contracts, multiple-award contracts,
GSA schedules, and single-award or agency-specific contracts. The Federal Acquisition
Service offers services on a fee-for-service basis that includes hourly rates, fixed prices,
and surcharge options.

The Federal Acquisition Service consists of 11 GSA regions. Each region has a Client
Support Center that provides assisted acquisition support for Federal agencies within that
region. The Client Support Centers regions are:

       New England Region 1 (Boston, Massachusetts),
       Northeast and Caribbean Region 2 (New York City, New York),
       Mid-Atlantic Region 3 (Philadelphia, Pennsylvania),
       Southeast Sunbelt Region 4 (Atlanta, Georgia),
       Great Lakes Region 5 (Chicago, Illinois),
       The Heartland Region 6 (Kansas City, Missouri),
       Greater Southwest Region 7 (Fort Worth, Texas),
       Rocky Mountain Region 8 (Denver, Colorado),
       Pacific Rim Region 9 (San Francisco, California),
       Northwest/Arctic Region 10 (Auburn, Washington), and
       National Capital Region 11 (Washington, DC).

From June 1, 2008, through September 30, 2009, DoD provided $2.8 billion to GSA
contracting activities to award acquisitions of 6296 goods and services. For this audit, we
visited 10 DoD organizations where we reviewed 50 purchases valued at $255 million
and 3 GSA Client Support Centers where we reviewed 35 of the 50 purchases valued at
$203 million. Forty-four of the 50 purchases were valued at more than $500,000.

                                             2

Changes As a Result of Previous Audits
Since the last audit, the GSA Federal Acquisition Service Comptroller’s Office has
returned $859.9 million to DoD organizations (see Table 1).

                   Table 1. Funds Returned to DoD Organizations by GSA
                        Fiscal Year             Returned Funds
                                                  (in millions)*
                            2007                      $366.6
                            2008                       273.8
                            2009                       219.5
                     Total                            $859.9
                    *
                     These funds include expired funds as well as funds no longer needed.


Memorandum of Agreement Between DoD and GSA
In December 2006, DoD and GSA officials signed a memorandum of agreement to
improve the interagency acquisition process as a result of DoD IG Report
No. D-2007-007, “FY 2005 DoD purchases Made Through the General Services
Administration.” DoD and GSA officials agreed to work together on multiple areas.
Some areas include:

       	 developing standardized content for interagency agreements,
       	 ensuring that contract surveillance and oversight requirements are defined,
          adequate, and implemented when used in conjunction with a contract or order
          issued by DoD or GSA;
        ensuring that acquisition planning is done before and after work is assigned to
          GSA;
        ensuring that a DoD contracting officer reviews work before the work is accepted
          by GSA;
        ensuring that DoD customers provide quality military interdepartmental purchase
          requests (MIPRs)2 to GSA for assisted acquisitions; and
        ensuring that contractor past performance is documented properly and in a timely
          manner for contracts or orders issued by DoD or GSA.

This agreement also included 24 action items that more specifically defined DoD and
GSA’s respective roles and responsibilities with regard to the agreement. The following
are some examples of action items.

       	 The Under Secretary of Defense for Acquisition, Technology, and Logistics will
          issue a policy memorandum to require a DoD contracting officer review of each



2
    A MIPR is a funding document.

                                                     3

         acquisition greater than $500,000 that is to be placed on contract by a non-DoD
         contracting officer.
    	   The Under Secretary of Defense for Acquisition, Technology, and Logistics will
         issue a policy memorandum establishing DOD policy on contract administration
         roles and responsibilities when purchasing goods or services through non-DoD
         agencies.
    	   GSA and DoD will jointly issue a memorandum to emphasize proper acquisition
         planning when the Department uses contract vehicles of GSA or contract support
         provided by GSA to DoD.
    	   GSA and DoD will jointly develop standardized content for interagency
         agreements such as DoD and GSA identified roles and responsibilities and quality
         assurance surveillance plans.
    	   The Under Secretary of Defense for Acquisition, Technology, and Logistics will
         issue a policy memorandum establishing the DoD policy on roles and
         responsibilities related to the proper capture of past performance information in
         the Federal past performance database.

DoD and GSA officials completed 21 action items, and DoD officials continue to work
on the remaining 3 actions. The three remaining actions are: revise DoD
Instruction 4000.19, “Interservice and Intragovernmental Support,” jointly issue a
memorandum to emphasize proper acquisition planning when DoD uses GSA, and issue
a memorandum on the need to use performance-based requirements, hold contractors
accountable for nonperformance, and deobligate funds in a timely manner.

Interagency Acquisitions Guidance
On June 6, 2008, the Office of Federal Procurement Policy (OFPP), in the Office of
Management and Budget, Executive Office of the President, issued a memorandum,
“Improving the Management and Use of Interagency Acquisitions.” The memorandum
provides guidance to help agencies make sound decisions when supporting the use of
assisted acquisitions and direct acquisitions. The guidance lists key parts of an
interagency agreement, including Part A: general terms and conditions, and Part B:
requirements and funding information. The guidance also provides a checklist of roles
and responsibilities for the requesting and servicing agency. On October 31, 2008, the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
issued a memorandum, “Meeting Department of Defense Requirements Through
Interagency Acquisitions,” mandating the use of the OFPP guidance.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006,3 requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control


3
 DoD reissued DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” on
July 29, 2010. We performed this audit under the previous guidance.

                                                 4

weaknesses for Office of the Under Secretary of Defense for Acquisitions, Technology,
and Logistics. DoD program, contracting, and financial officials did not comply with
Federal or Defense regulations and guidance. DoD organizations did not determine that
the use of GSA was in the best interest of the government. Further, DoD contracting
officers did not always review purchases of more than $500,000 as required. DoD
organizations should ensure that they comply with DoD Regulation 7000.14-R, “DOD
Financial Management Regulation,” (DoD FMR) when making assisted acquisitions.
Implementing Recommendation 1 will improve assisted acquisitions. We will provide a
copy of the report to the senior official responsible for internal controls in the Office of
the Under Secretary of Defense for Acquisitions, Technology, and Logistics.




                                              5

Finding. Improvements Needed in DoD Use
of the General Services Administration
GSA contracting officials and DoD fund management officials have significantly
improved their interagency contracting practices related to the appropriate use of funds
and proper contract awards. However, DoD officials did not consistently comply with
the Federal Acquisition Regulation (FAR) and DoD regulations. Specifically,

                	 for 36 of 50 purchases, valued at approximately $188 million, DoD
                   officials did not perform or inadequately performed acquisition planning
                   to determine whether the use of non-DoD contracts was in the best interest
                   of the Government; and for 31 of 50 purchases, valued at approximately
                   $152 million, did not develop or have inadequate interagency agreements;

                	 for 3 of 50 purchases, valued at approximately $5.8 million, GSA and
                   DoD officials incurred potential Antideficiency Act violations through the
                   use of incorrect appropriations; and

                	 for 28 of 50 purchases, valued at approximately $128 million, GSA and
                   DoD officials did not ensure that a contracting officer’s representatives
                   (COR) was assigned; for 32 of 50 purchases, GSA and DoD officials did
                   not have or had inadequate surveillance of contractor performance; and for
                   28 of 50 purchases,4 DoD and GSA officials did not collect past
                   performance information.

Furthermore, the GSA contracting officials did not always properly award purchases
reviewed. Specifically,

                	 for 4 of 35 purchases, valued at approximately $5 million, GSA
                   contracting officials did not ensure adequate competition, and

                	 for 14 of 35 purchases, valued at approximately $66 million, GSA
                   contracting officials did not have sufficient support for price
                   reasonableness determinations.

This occurred because the DoD and GSA officials involved in the purchases did not
emphasize acquisition planning and contract administration for the goods and services
acquired through interagency acquisitions. As a result, DoD organizations had no
assurance that the purchases resulted in best value for the Government or that the terms
and conditions of contracts were met.




4
    Six of the purchases did not meet the threshold that requires past performance information to be collected.

                                                        6

Inadequate Acquisition Planning for Use of GSA
Contracting Services
We visited 10 DoD organizations that sent funds to GSA using MIPRs for the acquisition
of goods and services. The DoD organizations did not always:

      perform acquisition planning to support that GSA was the best source for the
       procurement of goods and services;
      enter into interagency agreements with GSA that were specific, definite, and
       certain; or
      properly prepare MIPRs used to fund their purchases.

Acquisition Planning
Of the 50 purchases reviewed, DoD did not perform adequate acquisition planning for
36 purchases valued at approximately $188 million, as required by the FAR. DoD is
required to perform adequate acquisition planning prior to sending funds to GSA. FAR
Part 7, “Acquisition Planning,” requires agencies to perform acquisition planning for all
acquisitions. FAR 7.102 adds: “the purpose of this planning is to ensure that the
Government meets its needs in the most effective, economical, and timely manner.”
Moreover, DoD organizations must determine and support that the decision to use GSA
contracting services instead of DoD services for the acquisition of goods and services is
in the best interest of the Government. Best interest determinations are required by DoD
memorandum, “Proper Use of Non-DoD Contracts,” October 29, 2004. The
memorandum states:

       Factors to be considered include:

              satisfying customer requirements; 

              schedule;

              cost-effectiveness (taking into account discounts and fees); and 

              contract administration (including oversight)


DoD organizations did not always follow FAR and DoD standards for acquisition
planning when using GSA to acquire goods and services. For instance, the Navy Warfare
Development Command used GSA Region 1 for the acquisition of Management,
Organizational, and Business Improvement Services and the Concept of Operations and
Joint Concept Development and Experimentation Engineering/Analysis support
purchases, valued at $3.1 million. A Navy Warfare Development Command official
stated that he relied on GSA for the acquisition planning because GSA always completed
the acquisition plan. However, the June 6, 2008, OFPP memorandum and the
October 16, 2006, Under Secretary of Defense, “Non-Economy Act Orders,”
memorandum clearly state that the requiring activity, in this case the Navy Warfare
Development Command, is responsible for the acquisition planning prior to sending the
request to GSA. Further, the Navy Warfare Development Command officials did not
prepare best interest determinations to use GSA, and a DoD contracting officer did not
review any of the Navy Warfare Development Command purchases. See Appendix C for
detailed information on the contracting problems.

                                                   7

DoD Contracting Officer Review
Of the 50 purchases reviewed,5 DoD contracting officers did not adequately review the
order package as required by DoD guidance for 33 purchases, valued at $192 million.
The Under Secretary of Defense October 16, 2006, memorandum, “Non-Economy Act
Orders,” and the DoD FMR volume 11A, chapter 18, “Non-Economy Act Orders,”
require all non-economy act orders of more than $500,000 to be reviewed by a
DoD-warranted contracting officer before sending the funds to the non-DoD
organization. For example, the Defense Commissary Agency did not follow DoD policy
when using GSA to acquire services. Specifically, the Defense Commissary Agency
used GSA to acquire heating, ventilation, and air conditioning services, valued at
$1.48 million. However, the requiring activity never sent the acquisition package to a
DoD-warranted contracting officer for review. A DoD-warranted contracting
officer must evaluate the acquisition package to determine whether the requirement is in
accordance with DoD policy that states non-economy act orders are conducted in the best
interest of DoD.

Interagency Agreements
Of the 50 purchases reviewed, DoD organizations did not have adequate interagency
agreements with GSA outlining the terms and conditions of the purchase for
31 purchases, valued at approximately $152 million. Moreover, DoD and GSA officials
did not always comply with DoD and OFPP policy on interagency agreements. Of the
31 purchases that did not have an adequate interagency agreement with GSA, 25 were
inadequate, and 6 did not have an agreement at all. Most of the deficiencies were caused
by excluding the minimum interagency agreement supporting information that must be
included in agreement. Generally, the inadequate agreements did not have the authority
and/or the period of performance for the work. The interagency agreements usually cited
section 321, title 40, U.S.C., “Acquisition Services Fund,” which is the GSA statutory
authority to perform interagency acquisitions. The October 31, 2008, Under Secretary of
Defense for Acquisition, Technology, and Logistics memorandum mandates the use of
the June 6, 2008, OFPP memorandum for all assisted acquisitions and establishes
elements that are to be included in the interagency agreements for assisted acquisitions.
According to the June 6, 2008, OFPP memorandum, the interagency agreements must
consist of two parts. Part A describes the requirements general terms and conditions of
the interagency relationship, while Part B describes the requesting agency’s requirements
along with the funding information that is needed to demonstrate a bona fide need for the
specific purchase. Furthermore, the DoD FMR volume 11A, chapter 18, “Non-Economy
Act Orders,” requires all interagency orders to be supported by a written agreement
between the requiring agency and the servicing agency that includes, at a minimum, the
authority, a description of the material or services required, the financing source or fund
citation, the delivery requirements, the payment provisions, and the duration of the
agreement.


5
 Six purchases that we reviewed did not meet the threshold ($500,000) that required DoD contracting
officers to review the purchase.

                                                   8

MIPR Preparation
Of the 50 purchases reviewed, DoD officials did not provide the required information
necessary on the MIPRs for interagency transactions for 39 purchases, valued at
$225 million. Section 1501, title 31, U.S.C., “Documentary evidence requirement for
Government obligations,” requires a binding, written agreement between two agencies
that will record the specific goods to be delivered, real property to be bought or leased, or
work or services to be provided. Defense Federal Acquisition Regulation Supplement
(DFARS) 253.208-1, “DD Form 448, Military Interdepartmental Purchase Request,”
requires reporting a realistic time of delivery or performance on each MIPR. Further, the
DoD FMR volume 11A, chapter 18, states that non-Economy Act orders for work and
services outside of DoD should be executed by issuance of a DD Form 448, “Military
Interdepartmental Purchase Request (MIPR),” and accepted using DD Form 448-2,
“Acceptance of MIPR.” If an alternative execution document is used, it must provide
information consistent with the MIPR. Non-Economy Act orders must include a firm,
clear, specific, and complete description of the goods or services ordered, specific
performance or delivery requirements, a proper fund citation, and a specific
non-Economy Act statutory authority.

DoD organizations issued MIPRs that either lacked a detailed description of the goods or
services to be acquired, did not specify the period of performance for purchased services
and delivery requirements for goods, or omitted the funding statement required by the
DoD FMR, volume 11A, chapter 18. The funding statement states, “These funds are
available for services for a period not to exceed one year from the date of obligation and
acceptance of this order. All unobligated funds shall be returned to the ordering activity
no later than one year after the acceptance of the order or upon completion of the order,
whichever is earlier.” In the case of goods, the DoD FMR volume 11A, chapter 18,
requires that interagency funding documents include the statement, “I certify that the
goods acquired under this agreement are legitimate, specific requirements representing a
bona fide need of the fiscal year in which these funds are obligated.” Most of the omitted
information on the MIPRs related to the lack of funding statements and the period of
performance that should have been included. For example, the five Battle Command
Battle Lab-Fort Huachuca purchase MIPRs sent to GSA, and dated after the effective
date of the March 27, 2006, memorandum, did not include the funding statement required
by that memorandum. Also, the Secretary of the Air Force, Management Policy and
Programs Integration Office (SAF/AQXR) Center for Reengineering and Enabling
technical support purchase did not include the funding statement or period of
performance on the MIPRs. It appears that the March 27, 2006, memorandum, and DoD
FMR requirements guidance were not disseminated to the DoD working level.

When preparing a MIPR, DoD organizations should either list or include a reference to
an interagency agreement, statement of work, task order, modification, or other
contractual document that contains a specific description of the goods and services being
procured. The description should include the expected periods of performance and the
DoD-required funding statement to provide a sound basis for the use of DoD funds.
Enhancing Part B of the interagency agreement to state that the financial personnel
properly prepared MIPRs in accordance with DoD guidance and then having that

                                              9

individual sign the agreement will promote accountability. See Appendix D for detailed
information on the funding problems.

DoD Generally Funded Purchases Correctly
DoD organizations generally funded purchases through GSA correctly. We did not find
                                           any bona fide needs issues. However, DoD
   DoD organizations generally funded
                                           organizations did not always use the correct
     purchases through GSA correctly.
                                           appropriation to fund the requirement.
Further, some DoD organizations did not maintain an audit trail of funds for purchases.

Bona Fide Need
Of the 50 purchases reviewed, we found no potential bona fide needs violations. All
50 purchases served a need existing in the fiscal year for which the appropriations were
available, and the purchases were considered adequate. DoD and GSA officials complied
with the bona fide needs rule and made significant improvements since our last audit.
GSA officials made changes to its Information Technology Solutions Shop (ITSS)
system Regional Business Application, which is used to track funds. Funds transferred to
GSA can now be tracked by appropriation type and fiscal year. The Regional Business
Application automatically sends an e-mail notification to GSA personnel if expired funds
are being used. This is a significant improvement.

DoD Financial Management Regulation Appropriation Guidance
Annual appropriation acts define the uses of each appropriation and set specific timelines
for use of the appropriations. The DoD FMR volume 2A, chapter 1, provides guidelines
on the most commonly used DoD appropriations for determining the correct
appropriation to use when planning acquisitions.

Expenses incurred in continuing operations and current services are budgeted in the
Operations and Maintenance (O&M) appropriations. Modernization costs of less than
$250,000 are considered expenses, as are one-time projects such as developing planning
documents and studies. O&M funds are available for obligation for 1 year.

Acquiring and deploying a complete system with a cost of $250,000 or more is an
investment and should be budgeted in a Procurement appropriation. Complete system
cost is the aggregate cost of all components (for example, equipment, integration,
engineering support, and software) that are part of, and function together as, a system to
meet an approved documented requirement. For modification efforts, only the cost of the
upgrade (for example, new software, hardware, and technical assistance) is to be counted
towards the investment threshold. The total cumulative cost of the entire system is not to
be considered when deciding what appropriation to use to fund modernization.
Procurement funds are available for 3 years.

Development, test, and evaluation requirements, including designing prototypes and
processes, should be budgeted in the Research, Development, Test, and Evaluation


                                            10 

appropriations. In general, all developmental activities are to be budgeted in Research,
Development, Test, and Evaluation appropriations. These funds are available for 2 years.

Recruiting, training, and retaining acquisition personnel should be budgeted in the DoD
Acquisition Workforce Development fund. The funds will help to ensure that the DoD
acquisition workforce has the capacity, in both personnel and skills, needed to properly
perform its mission, provide appropriate oversight of contractor performance, and ensure
that DoD receives the best value for the expenditure of public resources. The funds will
remain available for expenditure in the fiscal year for which credited and the
2 succeeding fiscal years.

Incorrect Appropriations
Of the 50 purchases reviewed, DoD organizations used incorrect appropriations to fund
the requirements for 3 purchases, valued at $5.8 million. For example, the Defense
Acquisition University used O&M funds and Workforce Development funds for the
$2.5 million Courseware Development purchase. The Defense Acquisition University
developed courses to meet the training and performance support requirements for military
and civilian personnel serving in acquisition positions around the world. According to
the statement of work for this purchase, the objectives require the contractor to “design,
develop, produce, update, and maintain Distributed Learning courses, IT supported
classroom courses, Continuous Learning modules, rapid deployment training, and
targeted training requirements that support the DAU [Defense Acquisition University]
mission at a high standard of excellence.” The contractors will be responsible for
modifying the current courseware systems to meet changing development and upgrade
requirements.

The modification of courseware products was not within the scope of O&M and
Workforce Development funds. O&M funds are to be used for expenses incurred in
continuing operations of less than $250,000, while this purchase is for $2.5 million.
Workforce Development funds should be used for recruiting, training, and retaining
acquisition personnel. This purchase was for designing and modifying the current
courseware systems. Based on a review of the statement of work, Procurement funds and
Research, Development, Test, and Evaluation funds should be used for this purchase.
According to DoD FMR volume 2A, chapter 1, Procurement funds should have been
used for modification efforts of more than $250,000. Research, Development, Test, and
Evaluation funds should be used to design and develop systems. Therefore, the Defense
Acquisition University used the incorrect appropriations for this purchase.

In another example, SAF/AQXR sent funding documents to GSA totaling approximately
$1.8 million, using O&M and Research, Development, Test, and Evaluation funds. The
procurement was for the Integrated Budget Documentation and Execution System
modernization effort that included developing, integrating, testing, and releasing software
updates that addressed change requests, deficiency reports, recommended enhancements,
and major software upgrades. The overall Integrated Budget Documentation and
Execution System requirement was separated into two purchases that covered
modernization and sustainment.

                                            11 

The Secretary of the Air Force used $800,000 of O&M funds and $1,000,000 of
Research, Development, Test, and Evaluation funds for the modernization effort.
According to DoD FMR volume 2A, chapter 1, Research, Development, Test, and
Evaluation funds should be used for development, test, and evaluation requirements,
including designing prototypes and processes. Also, O&M funds should be used for
expenses incurred in continuing operations and current services or for modernization
costs of less than $250,000, the O&M funds used for the purchase reviewed was well
above the $250,000 threshold. The Secretary of the Air Force did not always use the
correct appropriation because funds were not used in accordance with DoD policy. The
Under Secretary of Defense (Comptroller)/Chief Financial Officer should direct the
Defense Acquisition University and Secretary of the Air Force officials to conduct
preliminary reviews to determine whether Antideficiency Act violations occurred. The
remaining potential Antideficiency Act violation is discussed in the next section.

Audit Trail
Of the 50 purchases reviewed, DoD officials did not maintain an audit trail for the funds
used to make 9 purchases valued at approximately $63 million. According to DoD FMR
volume 11A, chapter 18, the requesting official is required to monitor the fund status.
DoD finance office officials should track the funds sent to GSA and have written
procedures to delineate duties for tracking the fund balances of GSA purchases.

DoD personnel used software such as Commander’s Resource Integration System
(CRIS), Defense Business Management System, and Standard Accounting and Reporting
System (STARS) to track MIPR fund status. These systems created reports to show the
obligation, expenditures, disbursements, and remaining fund balance. The funding
reports for the 9 purchases with no audit trails were either not provided or the information
did not match its respective MIPR. For example, the Air Force Civil Engineer Support
Agency officials provided us a funding summary sheet for the Utilities Privatization
purchase to show how funds were tracked. The purchase used MIPR F4ATA59138G001,
but this MIPR was not listed on any tracking sheet provided. The information on the
funding sheet did not correspond with the MIPRs provided by Air Force Civil Engineer
Support Agency. Thus, we were unable to determine how the MIPR totals were tracked.

In another example, the Naval Meteorology and Oceanography Center accepted
approximately $10.4 million of Department of Homeland Security “no-year” funds
through interagency agreements for the Security Ancillary Equipment II purchase. The
Naval Meteorology and Oceanography Center then sent $1.4 million of FY 2009 Navy
O&M funds to GSA for the purchase. The Department of Homeland Security
requirement supports the National Center for Critical Information Processing and Storage
Center that seeks to consolidate and safely store information critical to operations of the
Federal Government. The DoD FMR volume 2A, chapter 1, requires the use of
procurement funds for equipment purchases of more than $250,000, not O&M funds.
Additionally, the DoD MIPR sent to GSA stated that Department of Homeland Security
funds were used for the purchase but did not identify the specific Department of
Homeland Security fund cite. However, the Naval Meteorology and Oceanography

                                            12 

Center/GSA interagency agreement mentions that Treasury “no-year” funds were used
for the purchase. The Department of Homeland Security funding data did not reconcile
to the DoD funding information. Those funding documents and audit trail discrepancies
made it impossible to trace the funding from Department of Homeland Security
interagency agreements to DoD MIPRs.

Potential systematic issues existed related to tracking funds and managing the type of
money used to award contracts on behalf of non-DoD agencies. Changing the type of
funds could possibly extend the periods of availability or change restrictions of
appropriations beyond the established funding limits. Moreover, GSA contracting
officials who awarded contracts on behalf of those non-DoD agencies were not aware of
original funding sources and that could lead to the misuse of funds. Including non-DoD
agencies’ fund cites on MIPRs and interagency agreements, as well as reconciling DoD
and other Federal agencies’ funding totals could increase transparency for tracking funds
and reduce misuse of funds possibilities. Finally, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer should direct the Naval Meteorology and
Oceanography Center to conduct a preliminary review to determine whether the incorrect
appropriation was used and an Antideficiency Act violation occurred for the Ancillary
Equipment II purchase and to review the augmentation of Navy appropriations.

GSA Contracting Officers Generally Promoted Full and
Open Competition
GSA contracting officers generally promoted full and open competition through offers
solicited prior to contract award. Full and open competition exceptions include
sole-source and small business set-aside/8(a) contracts. Furthermore, contracting officers
must determine and document that prices paid for purchases are fair and reasonable.
Price reasonableness determinations are based on competition as well as a combination of
comparative cost analysis that includes market research and proposed price with prices
found reasonable on previous purchases comparison; current price lists, catalogs, or
advertisements; independent Government cost estimate comparison; or any other
reasonable basis.

Competition
We reviewed 35 contract actions6 GSA contracting officials awarded on behalf of DoD
organizations. Of 35 purchases, 21 valued at $123,593,969, were competed and received
multiple offers; the remaining 14 purchases, valued at $80,666,558, were awarded after
contracting officials’ efforts to compete purchases received only a single offer or were
issued by sole-source selection. Moreover, 4 of those 35 contract actions were not
adequately competed by GSA contracting officials.

For example, the Defense Acquisition University Learning Management Support
purchase, valued at $2.2 million, was originally awarded through the Federal Learning
Technology Program (Fed Learn) that served under the GSA Federal Technology Service

6
    We reviewed 35 of the 50 purchases at 3 GSA regions.

                                                    13 

on a cost-reimbursable basis by the authority of the Information Technology
Management Reform Act (ITMRA) and the Office of Management and Budget. As a
result of the Fed Learn closure, the Learning Management Support purchase was
transferred to GSA Region 3 (Philadelphia).

The single-offer award did not adequately demonstrate and document that contracting
officials employed reasonable efforts to identify additional contractors. A GSA
contracting official stated that there was only one proposal in the contract file from the
contractor awardee, and further stated that the total number of vendors solicited was
unknown. Though the total number of vendors considered for the requirement was not
provided, GSA personnel stated that the purchase was competed in accordance with
section 803, Public Law 107-107, “National Defense Authorization Act for Fiscal Year
2002,” by posting the acquisition package on the GSA eBuy Web site. The request for
quote (RFQ) that was open only 14 days did not include the list of vendors that were
considered for the purchase. DFARS 208.405-70 states that orders exceeding the
simplified acquisition threshold should be placed on a competitive basis if there is fair
notice of the intent to make the purchase. Moreover, the eBuy Web site instructs
Government officials requesting quotes to place a “check” next to vendors that they
would like a quote from on their RFQ. The vendors selected receive an e-mail notice
inviting them to provide a price quote on the RFQ. Preferably, quotes should be
requested from three vendors, if possible. Sending e-mail notifications to qualified
vendors could have increased competition for the requirement that was open only for
14 days. Proper documentation of competition efforts should include listing of vendors
RFQ and applicable e-mail notifications within the contract file.

In another instance, GSA Region 4 (Atlanta) contracting officials awarded a Federal
Supply Schedule purchase for a Naval Meteorology and Oceanography Command
SL8500 Tape Library and Tape Cartridges. Two bids were submitted for the purchase;
however, the contract action was inadequately competed because GSA contracting
officials listed a target price during solicitation that was placed on the FedBiz Web site.
FAR 16.201 states that fixed-price contracts providing for an adjustable price may
include a ceiling price and target price. However, including the target price within the
solicitation to contractors establishes price boundaries for bids and may not provide the
best price.

For the sole-source contracts reviewed, GSA officials provided appropriate FAR
exceptions and sufficiently explained the rationale of not competing requirements.

Price Reasonableness Determinations
Of the 35 purchases reviewed, GSA contracting officials did not adequately document
and support price reasonableness determinations for 14 purchases valued at
approximately $66 million. Of the 14 purchases reviewed, 9 had price reasonableness
determinations that were not sufficiently supported, and the remaining 5 purchases did
not have any price reasonableness determinations documented in the contract files.
Finally, 21 of the purchases had adequate price reasonableness determinations.


                                             14 

GSA contracting officials at Region 4 (Atlanta) issued a task order under a Blanket
Purchase Agreement for the Air Force Civil Engineer Support Agency. The requirement
for a Utilities Privatization program purchase did not adequately explain the rationale for
determining that prices were fair and reasonable. FAR Part 17.207, “Exercise of
Options,” states that the contracting officer may exercise an option only after determining
that it is the most advantageous method of fulfilling the Government’s need, price, and
other factors. Those other factors include making the determination on the basis of a new
solicitation not being more advantageous, an informal market price analysis indicating
that the option price is better, or the time between award and option year being so short
that it indicates that the option is the lowest price. Prior to exercising an option, the
contracting officer must make a written determination for the file that the option is being
exercised in accordance with the option terms and FAR part 17.207 requirements. A
Determination and Finding Exercise of Option was provided that states,

       In accordance with Federal Acquisition Regulation 17.207, I hereby determine it
       to be in the best interest of the Government to exercise the option period three
       for the period of 7/1/2009 to 6/30/2010 based on the following findings . . . the
       exercise of the Option is a means for ensuring continuity of operation and avoids
       the potential cost of disruption of operations, and the exercise of the option is
       the most advantageous method of fulfilling the Government’s requirement, price
       and other factors considered . . .all option periods were evaluated in the initial
       competition and are exercisable as agreed to in the task order award. The labor
       rates, labor mix and total task order price for the task (including options) was
       previously determined fair and reasonable at the basic task order award.

The Determination and Findings explains that the decision to exercise the option was
based on previously determined fair and reasonable prices at the basic task order award
timeframe. FAR part 8.405 states that the ordering activity is responsible for considering
the level of effort and the mix of labor proposed to perform a specific task being ordered
and determining that total price is reasonable. However, the initial fair and reasonable
price determination that the contracting officer conducted during pre-award was
inadequate due to the lack of supporting documentation provided for labor hours and
labor mix; therefore, the statement that labor rates, labor mix, and total task order price
was based on prior fair and reasonable price determinations conducted during basic task
order award could not be supported. Of 14 purchases reviewed, 3 did not have
Determination and Findings in the contract files stating that prices were fair and
reasonable for exercised option years. For example, the Army Accessions Command, Air
Cards purchase, in which the option year was exercised, did not have a price
reasonableness determination. Of the 14 purchases that did not adequately document and
support price reasonableness determinations, 7 were for base-year periods, and the other
7 purchases reviewed were for option years. The option year purchases did not meet the
requirements of FAR Part 17.2, “Options.”

Inadequate Contract Administration
Contract administration includes functions conducted by Government personnel from the
awarding of the contract through contract termination, including the elements of
surveillance and documentation of past performance. Surveillance is initiated through the
nomination and the appointment of trained CORs that perform oversight responsibilities.

                                                   15 

Furthermore, surveillance involves Government oversight of contractors for the purpose
of ensuring that the contractor performs the requirements specified in the contract and the
Government receives the goods or service as required. In addition, efficient and effective
monitoring efforts distinguish excellent contractors from poor performing contractors, as
well as mitigate contract problems.

DoD Contracting Officer’s Representatives
Of the 50 purchases reviewed, the GSA contracting officers did not assign DoD
personnel as CORs for 28 purchases, valued at $128 million. DFARS Procedures,
Guidance, and Information 201.6, “Career Development, Contract Authority, and
Responsibilities” states contract actions for services awarded by a DoD Component or by
any other Federal agency on behalf of DoD; contracting officers shall designate a
properly trained COR in writing before award.” Furthermore, interagency agreements for
equipment purchases that did not properly designate CORs state that individuals should
be appointed as CORs on those purchases. For instance, GSA officials did not appoint a
DoD COR in writing for the Navy Warfare Development Command Universal Naval
Task List interface support purchase. Additionally, DoD personnel should be designated
as CORs as opposed to GSA representatives when DoD is accepting work, signing
invoices, and performing Contract surveillance. For instance, the five Defense
Acquisition University purchases designated a GSA representative as the COR, when
DoD personnel were accepting the work and performing the contract surveillance.

Moreover, for 3 of the 22 purchases with designated CORs, the CORs may not have had
the skills necessary to reasonably ensure that the contractor is using efficient and
effective performance and cost methods. Those CORs did not provide training
certificates. The COR training certificates we obtained identified several courses
completed that included Basics for CORs, COR with Mission Focus, and Contracting
Officer’s Technical Representative Management of Information Technology Service
Contracts. COR training hours ranged from 1.5 hours to 40 hours, and the completion
dates of the training ranged from 1986 to 2009.

On March 29, 2010, the Under Secretary of Defense for Acquisition, Technology, and
Logistics issued a memorandum, “DOD Standard for Certification of Contracting
Officer’s Representatives (COR) for Service Acquisitions.” The memorandum
establishes DoD COR certification standards that include minimum COR competencies,
experience, and training according to the nature and complexity of the requirement and
contract performance risk. Specifically, fixed-price and other than fixed-price contract
requirements for experience and training differ due to contract performance risk. CORs
are required to complete standard training courses for both fixed-price and other than
fixed-price contract types, in addition to minimum COR refresher training. The
memorandum directs CORs to participate in refresher training that consists of 8 hours
every 3 years for fixed-price contracts and at least 16 hours every 3 years for other than
fixed-price contracts. Adherence to this newly issued memorandum should adequately
address the training issue. Adequately trained CORs should be aware of their duties and
should recognize the importance of providing Government contract surveillance.


                                            16 

Surveillance Plans
Of 50 purchases reviewed, 21 did not include surveillance plans, 11 purchases had
inadequate surveillance plans, and the remaining 17 purchases had adequate surveillance
plans. DoD FMR volume 11A, chapter 18, states that requesting officials must establish
quality surveillance plans for non-Economy Act orders that exceed the simplified
acquisition threshold and ensure execution that would boost oversight of goods and
services. The surveillance plans should include requirements for documenting
acceptance of goods received or services performed, processes for receipt and review of
receiving reports and invoices, and reconciliation of receiving reports and invoices.
FAR Part 46.4, “Government Contract Quality Assurance,” states that surveillance plans
should specify all work requiring surveillance and the method of surveillance.

Surveillance Efforts for Goods and Services
The lack of surveillance plans did not provide assurance that supplies and services
conform to contract requirements. For instance, the Defense Commissary Agency did not
officially designate a DoD COR for the heating, ventilation, and air conditioning
purchase until 10 months after contract award. Additionally, Defense Commissary
Agency personnel did not have an adequate surveillance plan for goods, as required by
DoD FMR volume 11A, chapter 18, but stated that the receiving report (DD Form 250)
was signed after the work performed had been inspected. However, Defense
Commissary Agency personnel were unable to provide receiving reports that covered
approximately 90 percent of the purchase. DoD receiving personnel should ensure that
supplies are inspected and accepted prior to their use. FAR part 46.4 states that
Government inspection requires documentation on an inspection/receiving report form or
commercial shipping document/packing list. A signature on the inspection/receiving
document provides evidence of acceptance. If Government monitoring and inspections
of goods are not properly performed, it could result in the payment of goods that may not
comply with contract terms.

In another instance, the SAF/AQXR procured technical support for the Center for
Reengineering and Enabling Technology. The DoD COR did not have a quality
assurance surveillance plan (QASP) or list of surveillance duties, and he stated that
oversight involves attending weekly meetings with the contractor and reviewing monthly
status reports. Furthermore, the DoD COR admitted that the June 2009 monthly status
report was obtained the morning of the auditors’ visit in September 2009. Therefore,
before the auditors’ visit in September 2009, there were no monthly status reports
received between June and August 2009. The DoD COR mentioned that the person
assigned as the Resource Manager/contracting officer’s technical representative is
responsible for approving invoices. The Resource Manager/contracting officer’s
technical representative authorized funding and approved invoices; therefore, key
processes were not properly segregated, which increased the risk of fraud and errors.

At the Naval Meteorology and Oceanography Command, the Algorithm Development
and Installation purchase did not include an adequate QASP that included all work
requiring surveillance and the method of surveillance. The method of surveillance should
focus on how the work requiring surveillance will be evaluated. The DoD COR stated

                                           17 

that the assigned program manager monitors the contractor. However, the supposed
program manager for the purchase stated that a former program manager, who no longer
worked for the Navy, was responsible for monitoring the contract action. Further,
discussions with the COR revealed that the former program manager, who left months
earlier, had an incomplete surveillance file. COR surveillance documentation provided
for the contract action was boilerplate and did not provide sufficient information on
contractor performance. More accountability among surveillance personnel is essential
to properly monitor contracts.

Of 50 purchases reviewed, 21 purchases did not have an assigned DoD COR or a
surveillance plan in the contract file. These purchases were particularly difficult to
monitor because the initial steps necessary to adequately monitor the purchases were not
put in place. The COR should be identified early in the acquisition cycle and included in
pre-award activities when appropriate.

Invoices
For 17 of 35 purchases, DoD officials did not ensure that invoices were adequate. Part of
the COR’s responsibility was to review invoices to ensure that DoD obtained what it paid
for. Invoices were vague and did not include detailed costs. For example, the invoice for
the Battle Command Battle Lab-Fort Huachuca Modeling and Simulation purchase did
not contain detailed information regarding labor categories as required by FAR Part
32.905, “Payment Documentation and Process.” The labor deliverables total was
$75,504, but the invoice did not categorize the labor into rates. The lack of detailed
information would make it difficult for the COR to ensure that the Government received
what it paid for. In another example, the Defense Manpower Data Center personnel did
not have an adequate invoice for the Telos Task 4 purchase. The invoice was not
consistent with the contractor’s price proposal. The equipment listed in the invoice was
not listed in the proposal. Therefore, we were unable to determine whether the two rates
were consistent.

FAR part 32.905 states that invoices should include the description, quantity, unit of
measure, unit price, and extended price of supplies delivered or services performed.
Moreover, the OFPP, “Improving the Management and Use of Interagency Acquisitions,”
memorandum states that the requesting agency generally examines contractor invoices
for completeness and accuracy; improper invoices should be returned to the contractor.

Past Performance
For 28 of 50 purchases reviewed,7 DoD organizations did not collect past performance
information as required by DoD policy. Past performance information is a tool used to
provide feedback to contractors on actual contractor performance that can be used for
future source selections. The June 6, 2008, OFPP memorandum, which DoD helped
develop and mandates its use for interagency acquisitions in excess of $500,000, assigns
responsibilities for the recording of contractor’s past performance. Specifically, the


7
    Six purchases reviewed did not meet the threshold that requires past performance information be collected.

                                                       18 

OFPP memorandum states that the requesting agency should track, measure, and report a
contractor’s performance to the servicing agency. The memorandum also states that the
servicing agency handles contractor performance evaluations that are based on the data
provided by the requesting agency. The servicing agency should input past performance
evaluations into the Past Performance Information Retrieval System (PPIRS).
Furthermore, the January 18, 2008, Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics memorandum, “Interagency Acquisition,” states
that the assisting agency, in this case GSA, should evaluate the contractor’s performance
and capture information in the past performance information database. The assisting and
requiring activities’ teamwork and coordination are critical to successfully completing
contractor past performance assessments.

However, DoD organizations did not always collect and provide past performance
information to GSA officials. For example, a DoD official stated that he does not collect
past performance information for current contracts. Instead, the DoD official stated that
he collects past performance information after contract closeout. This is normally up to
5 years after contract award, including options. The November 27, 2007, Office of the
Under Secretary of Defense, Director, Defense and Acquisition Policy memorandum,
“Past Performance Information,” clearly states that past performance information must be
collected for all performance periods when procurements exceed the DoD-established
dollar thresholds, not just contract closeout. Moreover, DoD policy states that if the total
contract value including unexercised options and orders is expected to exceed the
collection threshold, the data collection process must be initiated at the beginning of the
contract.

In other instances, DoD officials stated that they do not collect past performance
information because it is a GSA responsibility. For those cases, the duties were not
clearly delineated; therefore, DoD officials did not collect past performance for future
use. Although the memorandum of agreement between DoD and GSA for interagency
contracting support does not specify who is responsible for the collection of past
performance data, the document does explain that DoD and GSA will work together to
ensure that past performance is documented in a timely and proper manner. DoD and
GSA officials should adhere to the OFPP guidance on Part A that specifies the requiring
and servicing agencies’ past performance responsibilities.

Lack of Interagency Contracting Accountability
Interagency contracting issues persist because DoD and GSA officials have not
emphasized accountability for interagency acquisition requirements. In December 2006,
the Director, Defense Procurement and Acquisition Policy, Office of the Under Secretary
of Defense for Acquisition, Technology, and Logistics and the GSA Chief Acquisition
Officer signed the memorandum of agreement between DoD and GSA. This agreement
broadly covers some areas addressed in the report. Specifically, it requires DoD and
GSA to develop standardized content for interagency agreements. DoD and GSA
officials must use the OFPP guidance to meet this requirement. The OFPP guidance
establishes that interagency agreements should have a Part A and a Part B that are signed
by the requiring organization.

                                            19 

Though OFPP guidance on interagency contracting includes areas mentioned throughout
the report (acquisition planning, contracting officer review, CORs appointment,
surveillance plans, and past performance), most areas are also discussed in Part A of the
interagency agreements. Regarding the use of GSA, Part A of the interagency agreement
is much broader and applies to multiple purchases. It is not specific to the purchase.

Part B of the interagency agreement is specific to the particular purchase and
encompasses funding. The requesting office signs Part B of the interagency agreement
for DoD organizations. The funding personnel coordinated with the requirement holders
to prepare and forward MIPRs to the servicing agency.

As stated previously, funding issues significantly decreased since the last GSA
interagency audit. Requiring problematic areas to be specifically addressed in Part B of
the interagency agreement will help to ensure that DoD personnel and the servicing
agency have considered the upfront planning of the acquisition. In our opinion, the
interagency agreement should address:

      acquisition planning (GSA/DoD delineated responsibilities that include market
       research and best interest determinations made by DoD),
      DoD contracting officer reviews,
      MIPR preparation,
      price reasonableness determinations,
      appointment of CORs,
      surveillance plan preparation and adherence,
      review of invoices (ensure labor categories are accurate, invoices are detailed as
       required by the FAR, and hours are worked), and
      past performance information collection and how it is provided to the serving
       agency.

Part B should include for each area a summary of the work that should be done and the
responsible official from DoD or GSA or both for the area. These individuals should sign
the agreement to ensure accountability. Personnel will then know that they are
responsible for all the duties relating to a specific area. Requiring personal accountability
should reduce the problems identified in the report.

Both DoD and GSA officials were responsible for the contracting problems previously
mentioned. For example, DoD officials should ensure that the GSA contracting officer
has nominees’ information to assign qualified personnel as CORs on purchases, as
required by Part A of the interagency agreement. If a DoD organization does not
nominate a COR, the GSA contracting officer should request an individual to serve as a
COR and provide the representative with a COR letter as required by the DFARS
subpart 201.6. The addition of these specific details in Part B of the interagency
agreement will help to ensure that the responsible official is aware of the requirements,
such as the assignment of CORs or providing contractor evaluations for past performance
systems, when beginning the acquisition process.

                                             20 

Conclusion
DoD should continue to use GSA to purchase goods and services when in DoD’s best
interest. GSA contracting officials and DoD resource management officials generally
complied with the FAR and appropriation law on the use of appropriated funds for
interagency acquisitions. GSA Client Support Centers have made improvements since
the last audit. However, DoD organizations showed little improvement in some areas
since our last audit. The majority of DoD purchases reviewed had inadequate MIPR
                                           preparation, did not have or had inadequate
     DoD organizations showed little       interagency agreements, did not have or had
  improvement in some areas since our      inadequate acquisition planning, no DoD
                 last audit.               contracting officer review, no COR
designations, did not have or had inadequate surveillance plans, and no record of past
performance information.

These issues have been identified repeatedly in reports. DoD IG Report No. D-2005-096,
“DOD Purchases Made Through the General Services Administration,” July 29, 2005,
identified inadequate acquisition planning, lack of or inadequate interagency agreements,
use of incorrect appropriations, and no audit trails. The second DoD IG report, issued in
2007, also identified those problems and issues with DoD COR designations, surveillance
plans, and past performance. Further, the DoD IG issued numerous reports on other non-
DoD agencies that identify these issues.

DoD and GSA officials have successfully strengthened internal controls to resolve
                                                         previously identified bona fide
  In recent years, GSA officials have returned funds     need funding problems.
     of approximately $860 million that consist of       However, DoD and GSA officials
      expired funds and funds that were no longer        need to further improve their
                 required for purchases.                 interagency contracting practices
that include acquisition planning, price reasonableness determinations, and contract
administration. Though addressed in the various memoranda of agreement and
interagency agreements between DoD and GSA, these areas continue to have problems.
Both agencies should ensure interagency agreements include roles and responsibilities
that are clearly delineated to GSA and DoD acquisition personnel. Adequate acquisition
planning helps ensure that using a non-DoD contracting office is in the best interest of the
Government. Additionally, DoD organizations must comply with DoD regulations when
preparing MIPRs and tracking funds. In recent years, GSA officials have returned funds
of approximately $860 million that consist of expired funds and funds that were no longer
required for purchases. Considering other events that are occurring within DoD, these
funds could be put to better use.

GSA and DoD must work together to determine and document that prices paid for
purchases are fair and reasonable. Interagency audits continue to identify contract
administration issues that include the lack of COR letters and insufficient surveillance.
These systematic issues increase Government susceptibility to contract mismanagement,
contract overcharges, and excessive spending. Government contracts without a
surveillance plan increase the potential for confusion and misinterpretation when

                                            21 

surveillance personnel conduct reviews. DoD personnel must prepare surveillance plans,
document their surveillance efforts, and demonstrate adequate monitoring of contractor
performance. Without surveillance documentation, it will be difficult to convince a
contractor that performance improvement is needed. DoD adherence to those
surveillance procedures will increase the likelihood that services and equipment conform
to contract requirements. DoD officials further strengthening internal controls and
making personnel accountable can increase the probability that DoD receives the best
value.

Management Comments on the Finding and Our
Response
Defense Human Resource Activity Comments
The Director, Defense Human Resource Activity, responding on the behalf of the
Defense Manpower Data Center, provided comments and partially agreed with the
finding. Specifically, the Director stated that in accordance with DFARS
PGI 201.602-2 (i) (A) and FAR 46.401(a), a DoD COR letter and surveillance plan were
not required for the Rules Inference Software purchase of goods. The Director added that
for the Telos Task 4 purchase, the price reasonableness determination was the GSA
contracting officer’s responsibility and not that of Defense Human Resource Activity,
and a surveillance plan was completed. The Director disagreed that the Defense
Manpower Data Center inadequately prepared MIPRs and interagency agreements for the
Software Development Support, Rules Inference Software, and Hi-End Architecture
Support purchases. The Director stated that the MIPRs were properly referenced and that
the interagency agreements were in compliance with the current guidance. Finally, the
Director stated that the Defense Human Resource Activity has implemented an
interagency agreement review process that includes a review of all MIPRs.

Our Response
We agree that for two purchases, Software Development Support and High-End
Architecture Support, the interagency agreements were adequate. However, to avoid
confusion, we advise removing the word “Draft” from future final signed interagency
agreements. We also agree that a surveillance plan was prepared for the Telos Task 4
purchase. We corrected the report accordingly. In addition, we agree, as noted in the
draft report, that the price reasonableness determination was the responsibility of GSA.
However, we maintain that a COR designation letter and a surveillance plan were
required for the purchase of goods. All purchases reviewed should have complied with
DoD FMR volume 11A, chapter 18, section 180401, which requires a quality
surveillance plan for all goods and service acquisitions over the simplified acquisition
threshold. Section 180401 states that the requesting official should ensure the execution
of the quality surveillance plan to facilitate the oversight of the goods provided. In
addition, the interagency agreement for this goods purchase provided to us and signed by
a Defense Manpower Data Center official states that the client, the Defense Manpower
Data Center, will designate a representative to be appointed as COR for each requirement
submitted to GSA Federal Acquisition Service. Although not required by DFARS and

                                           22 

FAR, we believe that a COR should be designated to execute the surveillance plan
required by the FMR for the acquisition of goods.

We disagree that some of the MIPRs and interagency agreements noted in the report as
inadequate are adequate. Although many of the MIPRs reviewed included most of the
information required, some were incomplete. Specifically, the MIPRs did not include the
statement on funding required for all goods and services acquisitions by DoD FMR
volume 11A, chapter 18, section 180203. Any MIPR that did not include the applicable
statement was incomplete; and therefore, we considered it inadequate for the purchase.

We maintain that the interagency agreement for the Rules Inference Software was
inadequate. We recognize that Defense Manpower Data Center officials sought advice
on this interagency agreement from the DoD Office of Under Secretary of Defense for
Acquisition, Technology, and Logistics, Defense Procurement and Acquisition Policy.
However, Defense Manpower Data Center officials should comply with the June 2008
OFPP guidance on interagency acquisitions, which requires a Part A and a Part B for all
interagency agreements. Furthermore, the interagency agreement Part A, provided and
signed by Defense Manpower Data Center official for this purchase, states that a Part B
with specific order information will be prepared and signed for this purchase. Therefore,
Defense Manpower Data Center officials should have complied with the interagency
agreement.

GSA Federal Acquisition Service Comments
Although not required to comment, the Commissioner, GSA Federal Acquisition Service,
provided comments and agreed with the finding and conclusion of the draft report. The
Commissioner stated that GSA has made significant improvements in the last couple of
years to support DoD needs and to strengthen administrative contracting and oversight
practices. The Commissioner added that, based on recommendations from our previous
audits, GSA-Assisted Acquisition Services places more emphasis on internal consistency
and oversight. The Commissioner stated that an internal peer review process will be
established to enhance the levels of management control. In addition, the Commissioner
stated that GSA has been providing ongoing training to the acquisition services
workforce to ensure they understand the specific needs and requirements of DoD. The
Commissioner added that these steps will preserve the improvements noted in this audit,
and additional changes will be implemented in FY 2011. Finally, the Commissioner
stated, as the draft report states, that GSA returned approximately $860 million to DoD
from FY 2007 through 2009.


Recommendations, Management Comments, and Our
Response
Based on management comments received from the Air Force and Navy, we revised
recommendation 3.


                                           23 

1. We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics work with General Service Administration officials to enhance Part B
of the interagency agreements to address problems identified in this report,
including acquisition planning, audit trails, preparing military interdepartmental
purchase requests, DoD contracting officer review, competition, price
reasonableness determinations, contracting officer’s representative letters,
surveillance plans, and past performance. Further, the agreements should list the
specific DoD and General Service Administration personnel who will be responsible
for the areas and these individuals should sign Part B of interagency agreements
accepting the responsibility.

Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
The Director, Defense Procurement and Acquisition Policy, responding for the Under
Secretary of Defense for Acquisition, Technology, and Logistics, agreed. The Director
stated that DoD is collaborating with the Office of Federal Procurement Policy and other
civilian agencies in reviewing the current standardized interagency agreement format to
identify necessary improvements. The Director added that the revised standardized
agreement is expected in FY 2011.

GSA Federal Acquisition Service Comments
Although not required to comment, the Commissioner, GSA Federal Acquisition Service,
agreed with the recommendation with one clarification on Recommendation 1. The
Commissioner stated that GSA assumes that the Directors of the respective GSA client
support centers are the responsible personnel for signing the interagency agreements.
Finally, the Commissioner stated that GSA will work with the Under Secretary of
Defense for Acquisition, Technology, and Logistics to improve Part B of the interagency
agreements to address any remaining issues noted in the report.

Our Response
The comments are responsive, and no further comments are required.

2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer direct the DoD Components to initiate preliminary reviews to
determine whether the improper use of Government funds for the three purchases
resulted in Antideficiency Act Violations or other funding violations in accordance
with DoD 7000.14-R, “DOD Financial Management Regulation.”

Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments
The Deputy Chief Financial Officer, responding for the Under Secretary of Defense
(Comptroller), partially agreed. The Deputy Chief Financial Officer agreed that
preliminary reviews must be performed. The Deputy Chief Financial Officer requested
that the Defense Acquisition University, Navy, and Air Force initiate preliminary reviews

                                           24 

on September 3, 2010, but requests for future preliminary reviews should be addressed
directly to the Components.

Our Response
The comments are responsive, and no further comments are required.

3. We recommend that the Under Secretaries of the Army, Navy, Air Force, and
Directors of the Defense agencies establish a peer review or comparable procedural
process for the requesting organization to verify that interagency contracting
practices adhere to the Federal Acquisition Regulation and DoD guidance. Areas to
be reviewed include, but are not limited to: acquisition planning, interagency
agreements, military interdepartmental purchase request preparation, DoD
contracting office approval, contracting officer’s representative designations,
surveillance plans, and past performance input.

Under Secretary of the Army Comments
The Under Secretary of the Army did not comment on the recommendation. We request
that the Under Secretary provide comments in response to the final report.

Under Secretary of the Navy Comments
The Director, Program Analysis and Business Transformation, responding for the Under
Secretary of the Navy, partially agreed. The Director agreed that there should be
procedures to ensure that interagency acquisition practices comply with applicable
regulations and guidance but stated that a peer review is not appropriate because it would
be excessive, expensive, and burdensome. Instead, the Director recommended that
interagency acquisition policies, procedures, and internal controls be a focus in periodic
activity command inspections, performance management assessments, and similar
reviews.

Under Secretary of the Air Force Comments
The Associate Deputy Assistant Secretary (Contracting) and Assistant Secretary
(Acquisition), responding for the Under Secretary of the Air Force, partially agreed and
stated that the Air Force has a multifunctional team review, contract clearance review,
and compliance inspection process to ensure that interagency contracting practices adhere
to the FAR and DoD guidance. However, the Assistant Secretary stated that applying
additional peer review procedures to include reviews conducted for or by organizations
outside of the Air Force for interagency acquisitions would be excessive, expensive,
administratively burdensome, and not beneficial. The Assistant Secretary further stated
that the processes that the Air Force has in place for the oversight of interagency
contracting are sufficient and appropriate.

Defense Commissary Agency Comments
The Acting Chief, Internal Audit, responding for the Director, Defense Commissary
Agency, agreed. The Acting Chief stated that the agency looks forward to joining the


                                            25 

Under Secretaries and Directors of DoD agencies to establish a peer review process to
support the interagency agreement process.

Defense Contract Management Agency Comments
The Executive Director, Contracts, responding for the Director, Defense Contract
Management Agency, agreed. The Director stated that the Defense Contract
Management Agency currently has a peer review process to ensure that the agency
complies with the FAR, DFARS, and DoD policies. The Director added that the agency
requires that all interagency acquisitions be reviewed and approved by Legal Counsel, a
Procurement Center Contracting Officer, and the Executive Director, Contracts, before an
interagency purchase is made. Finally, the Director stated that the Defense Contract
Management Agency Procurement Policy recently conducted a procurement management
review of MIPRs issued and will continue to conduct an annual review for compliance.

Defense Human Resource Activity Comments
The Director of the Defense Human Resource Activity agreed and stated that the Defense
Human Resource Activity established a procurement support office on October 8, 2009,
to perform peer reviews for its interagency agreements and to help to find solutions to the
issues with the interagency acquisition packages.

Defense Intelligence Agency Comments
The Chief of Staff, responding for the Director, Defense Intelligence Agency, agreed and
stated that the Defense Intelligence Agency is issuing a comprehensive acquisition peer
review plan for contracting through the GSA.

Other Defense Agencies
The Directors of the Missile Defense Agency, Defense Advanced Research Projects
Agency, Defense Contract Audit Agency, Defense Finance and Accounting Service,
Defense Information Systems Agency, Defense Legal Services Agency, Defense
Logistics Agency, Defense Security Cooperation Agency, Defense Security Services,
National Geospatial-Intelligence Agency, and National Security Agency/Central Security
Services did not comment on the recommendation. We request that the Directors provide
comments in response to the final report.

Our Response
The DoD organizations that commented had varying degrees of review processes. Based
on the comments, we revised the recommendation to state that “a peer review or
comparable procedural process” be used to oversee the interagency acquisition process.
Although the Navy and the Air Force did not fully agree with our draft report
recommendation, we believe that their approach is acceptable in meeting the intent of the
recommendation. Accordingly, no further comments are required. The Army did not
respond and we request comments from the Under Secretary. Further, we request
comments from all the Directors of Defense Agencies that did not respond.




                                            26 

Appendix A. Scope and Methodology
We conducted this performance audit from July 2009 through August 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This audit was a joint review conducted by the DoD OIG and GSA OIG. The audit
addressed the requirements of section 801, “Internal Controls for Procurements on Behalf
of the Department of Defense by Certain Non-Defense Agencies,” Public Law 110-181,
“National Defense Authorization Act for Fiscal Year 2008,” January 28, 2008. The
overall objective of the audit was to determine whether DoD and GSA improved their
interagency purchasing practices since our last audit, “FY 2005 DoD Purchases Made
Through the General Services Administration.”

We visited 10 DoD organizations and reviewed 50 purchases, valued at $255 million.
The GSA OIG provided data on all DoD purchases made from June 1, 2008, through
September 30, 2009. We determined which DoD organizations were the highest dollar-
value users of GSA to decide the 10 DoD organizations to visit. We selected the
purchases based on their high dollar values and purchases made near the fiscal year end.
The Army organizations visited include the Army Recruiting Command and Army
Accessions Command, and Battle Command Battle Lab-Fort Huachuca. The Navy
organizations visited include the Naval Meteorology and Oceanography Command and
Navy Warfare Development Command. The Air Force organizations visited include the
Office of the Secretary of the Air Force and Air Force Civil Engineer Support Agency.
The remaining Defense organizations include the Defense Acquisition University,
Defense Commissary Agency, Defense Manpower Data Center, and the U.S. Central
Command. The 50 purchases made at the 10 DoD locations covered 7 GSA regions
(1, 3, 4, 7, 8, 9, and the National Capital Region). The seven regions account for
81 percent of the total dollar amount of DoD purchases made through GSA.

For each DoD organization, we selected four to six high-value purchases, ranging from
$100,000 to $57 million. We reviewed documentation maintained by the DoD
organizations and GSA contracting officers to support purchases made through GSA.
The documents reviewed included contract actions, amendments and modifications,
MIPRs and acceptances, triannual obligation reviews, invoices, acquisition plans,
statements of work, QASPs, interagency agreements, COR letters, past performance
information, independent Government cost estimates, price reasonableness
determinations, and miscellaneous correspondence. We interviewed DoD officials
responsible for issuing the MIPRs, the DoD contracting officer, the officials from the
program office who initiated the related purchases, the COR responsible for surveillance
of contractor performance, and in some cases, the GSA contracting officer. We reviewed
a total of 35 contracts through 3 GSA regions to determine whether the invoices were
adequate and if the rates were consistent with the rates on the vendors’ proposals.

                                           27 

At each DoD organization visited, our review included the following.

   	 We determined whether DoD activities had internal controls in place for ensuring
      that the proper types of funds and proper year funds were used for DoD MIPRs
      sent to GSA, whether DoD officials tracked funds sent to GSA, and whether
      differences between DoD MIPRs and related contract actions were reconciled.
   	 We determined whether DoD requiring activities had internal controls in place for
      defining requirements and planning acquisitions for purchases awarded on GSA
      contracts.
   	 We determined whether DoD contracting activities were following established
      procedures for approving purchases made through the use of contracts awarded by
      GSA. Specifically, we determined whether DoD contracting officers were
      involved in planning purchases of more than $500,000 when using GSA.
   	 We determined whether GSA and DoD officials established procedures for
      monitoring contractor’s performance for DoD purchases awarded by GSA. For
      each purchase reviewed, we determined whether a DoD representative was
      assigned as the COR and signed a document accepting the contractor’s work.

Further, we visited 3 GSA regions and reviewed 35 of the 50 purchases, valued at
$203 million. The GSA regions include Region 3, Philadelphia; Region 4, Atlanta; and
Region 9, San Francisco. These three regions account for 57 percent of DoD business at
GSA. We selected the regions based on the DoD organizations we visited and the
regions those DoD organizations used.

At each GSA Region visited, our review included the following.

   	 We determined whether GSA officials adequately competed DoD purchases
      according to the FAR and DFARS. For each sole-source award, we determined
      whether the GSA contracting officer prepared a Justification and Approval for
      other than full and open competition that adequately justified the sole-source
      award.
   	 We determined whether the GSA contracting officers adequately documented that
      the prices paid for DoD purchases were fair and reasonable.

Use of Computer-Processed Data
The GSA OIG provided spreadsheets with the universe of DoD purchases for all
purchases made after June 1, 2008 through FY 2008 and all of FY 2009 purchases. From
the spreadsheets, we judgmentally selected high-value MIPRs for our review. We did not
assess the reliability of the GSA-furnished data during this audit. In addition, we
obtained contract and funding documentation related to each of the purchases from GSA
Information Technology Solutions Shop. We did not assess the reliability of the GSA
Information Technology Solutions Shop system as the audit was to determine whether
DoD and GSA improved interagency purchasing practices, not to review systems used in
the process.


                                          28 

We did not assess the accuracy of the past performance information systems used within
DoD, GSA, or the Government-wide Past Performance Information Retrieval System,
which is the official past performance system for compiling data on contractor
performance used throughout the Federal Government. We did not assess the accuracy of
the systems as the audit was to determine whether DoD and GSA improved interagency
purchasing practices, not to review systems used in the process.




                                         29 

Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DoD IG, the
Army Audit Agency, and the GSA IG have issued 27 reports discussing interagency
acquisitions. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov/. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army Audit Agency reports can be
accessed from .mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.
GSA OIG reports can be accessed at http://www.gsaig.gov/auditreports.cfm.


GAO
GAO Report No. GAO-10-367, “Contracting Strategies: Data and Oversight Problems
Hamper Opportunities to Leverage Value of Interagency and Enterprisewide Contracts,”
April 2010

GAO Report No. GAO-09-271, “High-Risk Series: An Update,” January 2009

GAO Report No. GAO-08-1063, “DOD Financial Management: Improvements Are
Needed in Antideficiency Act Controls and Investigations,” September 2008

GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance, Planning,
and Oversight Would Enable the Department of Homeland Security to Address Risks,”
September 2006

DoD IG
DoD IG Report No. D-2009-064, “FY 2007 DoD Purchases Made Through the National
Institutes of Health,” March 24, 2009

DoD IG Report No. D-2009-043, “FY 2007 DoD Purchases Made Through the
U.S. Department of Veterans Affairs,” January 21, 2009

DoD IG Report No. D-2008-122, “Follow-up on DoD Purchases Made Through the
Department of the Interior,” August 18, 2008

DoD IG Report No. D-2008-082, “Summary Report on Potential Antideficiency Act
Violations Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004
Through FY 2007),” April 25, 2008

DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made Through
the Department of the Interior,” March 19, 2008

DoD IG Report No. D-2008-050, “Report on FY 2006 DoD Purchases Made Through the
Department of the Treasury,” February 11, 2008


                                          30 

DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the
U.S. Department of Veterans Affairs,” December 20, 2007

DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the National
Institutes of Health,” November 15, 2007

DoD IG Report No. D-2007-098, “The Use and Control of Intragovernmental Purchases
at the Defense Intelligence Agency,” May 18, 2007

DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
Department of the Interior,” January 16, 2007

DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on DoD
Purchases Made Through Non-DoD Agencies,” January 2, 2007

DoD IG Report No. D-2007-032, “Report on FY 2005 DoD Purchases Made Through the
Department of the Treasury,” December 8, 2006

DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the National
Aeronautics and Space Administration,” November 13, 2006

DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the General
Services Administration,” October 30, 2006

DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General Services
Administration,” July 29, 2005

Army
U.S. Army Audit Agency Report No. A-2009-0016-FFH, “Acquisitions Made Using
Military Interdepartmental Purchase Requests, U.S. Army Medical Command,”
November 17, 2008

U.S. Army Audit Agency Report No. A-2007-0096-FFH, “Proper Use of Non-DOD
Contracts, U.S. Army Medical Command,” March 22, 2007

GSA IG
GSA IG Report No. A090139/A/A/P10011, “Review of the Federal Acquisition Service's
Client Support Centers,” September 17, 2010

GSA IG Report No. A090139/Q/7/P10006, “Review of the Federal Acquisition Service’s
Client Support Center Greater Southwest Region,” June 7, 2010

GSA IG Report No. A090139/Q/3/P10003, “Review of the Federal Acquisition Service’s
Client Support Center Mid-Atlantic Region,” June 4, 2010



                                        31 

GSA IG Report No. A090139/Q/W/P10005, “Review of the Federal Acquisition
Service’s Client Support Center National Capital Region,” June 4, 2010

GSA IG Report No. A090139/Q/4/P10004, “Review of the Federal Acquisition Service’s
Client Support Center Southeast Sunbelt Region,” June 4, 2010

GSA IG Report, “Compendium of Audits of Federal Technology Service Client Support
Center Controls,” September 29, 2006




                                        32 

Glossary
Abbreviations
N/A - Not Applicable
N/R - Not Reviewed
S. Source-Adq. - Sole Source Adequate


Acronyms
ABU - Airman Battle Uniform
CONOPS - Concept of Operations
EESOH - Enterprise Environmental Safety and Occupational Health Management
System
GPS - Global Positioning System
HQ - Headquarters
HVAC - Heating, Ventilation, and Air Conditioning Service
ISR - Intelligence, Surveillance, and Reconnaissance
IT - Information Technology
LMS - Learning Management System
PMAC - Program Management Assistance Contract
SMART - System Metric and Reporting Tool
USAREC - U.S. Army Recruiting Command

Notes
Note 1 – Adequate based on testimonial evidence




                                         37 

Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                    Click to add JPEG file




                                   38
Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer Comments




                    Click to add JPEG file




                                   39
Click to add JPEG file




               40
Department of Defense Human Resources Activity
Comments
                                                   Final Report
                                                    Reference




                                                 Enclosure 1
                                                 omitted because it
                                                 was a copy of the
                  Click to add JPEG file         draft report




                                 41
Click to add JPEG file




               42
                           Final Report 

                            Reference





Click to add JPEG file




                         Revised page 34 





               43
                           Final Report 

                            Reference





                         Revised page 8,
                         number of
                         interagency
                         agreements
                         adequate




Click to add JPEG file




               44
                           Final Report 

                            Reference





                         Revised page 8,
                         number of
                         interagency
                         agreements
                         adequate




Click to add JPEG file




               45
Click to add JPEG file




               46
Click to add JPEG file




               47
Under Secretary of the Navy Comments





                   Click to add JPEG file




                                  48
Click to add JPEG file




               49
Under Secretary of the Air Force Comments





                   Click to add JPEG file




                                  50
Click to add JPEG file




               51
Defense Intelligence Agency Comments





                  Click to add JPEG file




                                 52
Defense Commissary Agency Comments





                 Click to add JPEG file




                                53
Defense Contract Management Agency Comments





                 Click to add JPEG file




                                54
General Services Administration Comments





                   Click to add JPEG file




                                  55
Click to add JPEG file




               56
